Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    CMS AND CONTRACTOR
     OVERSIGHT OF HOME
      HEALTH AGENCIES




                    Daniel R. Levinson
                     Inspector General

                     December 2012
                     OEI-04-11-00220
EXECUTIVE SUMMARY: CMS AND CONTRACTOR OVERSIGHT OF HOME
HEALTH AGENCIES
OEI-04-11-00220

WHY WE DID THIS STUDY

In 2010, Medicare paid $19.5 billion to 11,203 home health agencies (HHA) for home
health services provided to 3.4 million beneficiaries. HHAs are considered to be
particularly vulnerable to fraud, waste, and abuse. The Centers for Medicare & Medicaid
Services (CMS) designated newly enrolling HHAs as high-risk providers in March 2011,
citing their record of fraud, waste, and abuse. A 2012 Office of Inspector General (OIG)
report also found that one in four HHAs had questionable billing, which was concentrated
in certain geographic areas where Federal investigators and analysts have focused their
efforts to combat fraud, waste, and abuse. Other OIG studies have found vulnerabilities
in Medicare contractors’ efforts to identify and investigate potential fraud and abuse, as
well as limitations in CMS’s oversight of these contractors.

HOW WE DID THIS STUDY

We collected information and supporting documentation from CMS, selected Medicare
Administrative Contractors (MAC), and selected Zone Program Integrity Contractors
(ZPIC) regarding activities to prevent improper payments on home health claims and to
detect and deter potential HHA fraud in 2011. In addition, we identified geographic areas
prone to HHA fraud, waste, and abuse and determined whether contractor activities
focused on these areas. We also analyzed claims data to determine whether Medicare
paid HHAs that were suspended or had their billing privileges revoked, and we examined
the timeliness with which CMS and its contractors acted on revocation recommendations.

WHAT WE FOUND

In 2011, the 2 MACs we reviewed collectively prevented $275 million in improper
payments and referred 14 instances of potential fraud. The four ZPICs we reviewed did
not identify any HHA vulnerabilities and varied substantially in their efforts to detect and
deter fraud. In 2011, Medicare also inappropriately paid five HHAs with suspended or
revoked billing privileges; additionally, CMS did not act on all revocation
recommendations.

WHAT WE RECOMMEND

We recommend that CMS (1) establish additional contractor performance standards for
high-risk providers in fraud-prone areas, (2) develop a system to track revocation
recommendations and respond to them in a timely manner, and (3) follow up on and
prevent inappropriate payments made to HHAs with suspended or revoked billing
privileges. CMS concurred with all three recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................9
Findings......................................................................................................13
           In 2011, the two MACs we reviewed collectively prevented
           $275 million in improper payments and referred 14 instances of
           potential fraud ................................................................................13
           In 2011, the four ZPICs we reviewed did not identify any HHA
           vulnerabilities and varied substantially in their efforts to detect and
           deter fraud ......................................................................................15
           In 2011, Medicare inappropriately paid five HHAs with suspended
           or revoked billing privileges; additionally, CMS did not act on all
           revocation recommendations………………………………….. ...17
Conclusion and Recommendations ............................................................19
           Agency Comments and Office of Inspector General Response.....21
Appendixes ................................................................................................22
           A: Map of Medicare Administrative Contractors .........................22
           B: Map of Zone Program Integrity Contractors ............................23
           C: Number and Percentage of Home Health Agencies for Which
           Zone Program Integrity Contractors Initiated Investigations From
           External and Internal Sources in 2011 ...........................................24
           D: Number and Percentage of Home Health Agencies for Which
           Zone Program Integrity Contractors Recommended Specific
           Administrative Actions and Referred Law Enforcement Cases in
           2011………………………………………….... ............................25
           E: Agency Comments…………………………………………....26
Acknowledgments..................................................................................... 29
                  OBJECTIVES
                  To determine the extent to which:
                       1. the Centers for Medicare & Medicaid Services (CMS) and its
                          contractors performed activities to prevent improper payments and
                          to detect and deter potential fraud among home health agencies
                          (HHA) in 2011 and
                       2. HHAs with suspended or revoked billing privileges received
                          inappropriate Medicare payments in 2011.

                  BACKGROUND
                  In 2010, the Medicare program paid $19.5 billion to 11,203 HHAs for
                  home health services provided to 3.4 million beneficiaries. 1 Home health
                  services are covered under Parts A and B of Medicare. Part A covers
                  home health services for individuals enrolled in Part A only, and Part B
                  covers home health services for individuals enrolled in Part B only. 2 For
                  individuals enrolled in Parts A and B, Part A covers postinstitutional home
                  health services for up to 100 visits and Part B covers services if the
                  individual exhausts the 100-visit limit.3 Home health services include
                  part-time or intermittent skilled nursing services, physical therapy,
                  occupational therapy, speech language pathology services, part-time or
                  intermittent home health aide services, medical social services, and
                  medical supplies and durable medical equipment. 4, 5 Although there are
                  copayments for most other Medicare services, there are generally no
                  beneficiary copayments for home health services.


                  1
                    Office of Inspector General (OIG) analysis of 2010 National Claims History (NCH)
                  Part A Standard Analytical File.
                  2
                    Social Security Act, § 1812(a)(3), 42 U.S.C. § 1395d(a)(3); Medicare Benefit Policy
                  Manual, Pub. No. 100-02, ch. 7, § 60.3.
                  3
                    Social Security Act, § 1812(a)(3), 42 U.S.C. § 1395d(a)(3); Medicare Benefit Policy
                  Manual, Pub. No. 100-02, ch. 7, § 60.1. Home health services are postinstitutional if they
                  are initiated within 14 days of discharge from an inpatient hospital stay lasting at least 3
                  consecutive days or within 14 days of discharge from a skilled nursing facility in which
                  the individual was provided posthospital extended care services. Social Security Act, §
                  1861(tt)(1), 42 U.S.C. § 1395x(tt)(1); Medicare Benefit Policy Manual, Pub. No. 100-02,
                  ch. 7, § 60.1. If an individual is enrolled in Parts A and B but does not meet the
                  3-consecutive-day stay requirement or the 14-day initiation of care requirement, home
                  health services are covered under Medicare Part B. Medicare Benefit Policy Manual,
                  Pub. No. 100-02, ch. 7, § 60.2.
                  4
                    Social Security Act, § 1861(m), 42 U.S.C. § 1395x(m).
                  5
                    Part-time or intermittent skilled nursing or home health aide services are furnished for a
                  total of fewer than 8 hours each day and 28 or fewer hours each week (or, subject to
                  review on a case-by-case basis as to the need for care, fewer than 8 hours each day and
                  35 or fewer hours per week). Social Security Act, § 1861(m), 42 U.S.C. § 1395x(m).

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                      1
                  Medicare Home Health Coverage Criteria
                  To qualify for home health services, Medicare beneficiaries must:
                  •    be confined to the home (i.e., homebound);
                  •    be in need of intermittent skilled nursing care or physical, speech, or
                       continuing occupational therapy;
                  •    be under the care of a physician; and
                  •    be under a plan of care established and periodically reviewed by a
                       physician. 6, 7, 8
                  For home health care starting on or after January 1, 2011, the certifying
                  physician or nonphysician practitioner must document a face-to-face
                  encounter with the beneficiary prior to certifying his or her eligibility. 9, 10
                  Fraud in the Home Health Benefit
                  CMS designated newly enrolling HHAs as high-risk providers in March
                  2011, citing their record of fraud, waste, and abuse. 11 Findings from OIG
                  reports and results of Federal investigations also indicate that HHAs may
                  be vulnerable to fraud. Further, they indicate that certain geographic areas
                  may be more prone to HHA fraud than others. For example, a 2012 OIG
                  report found that one in four HHAs nationwide had questionable billing



                  6
                    Social Security Act, §§ 1814(a)(2)(C) and 1835(a)(2)(A), 42 U.S.C. §§ 1395f(a)(2)(C)
                  and 1395n(a)(2)(A).
                  7
                    A beneficiary is considered to be homebound when he or she has a condition because of
                  an illness or injury that restricts his or her ability to leave his or her residence except with
                  the aid of supportive devices, the use of special transportation, or the assistance of
                  another person; or if leaving home is medically contraindicated. CMS, Medicare Benefit
                  Policy Manual, Pub. No. 100-02, ch. 7, § 30.1.1.
                  8
                    For purposes of benefit eligibility, “intermittent skilled nursing care” means care that is
                  provided or needed fewer than 7 days each week or fewer than 8 hours of each day for
                  periods of 21 or fewer days (with extensions in exceptional circumstances when the need
                  for additional care is finite and predictable). Social Security Act, § 1861(m), 42 U.S.C.
                  § 1395x(m).
                  9
                    CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 7, § 30.5.1. Starting on or
                  after January 1, 2012, for patients receiving home health care immediately after an acute
                  or a postacute stay, a physician who cared for the patient in an acute or a postacute
                  facility can inform the certifying physician regarding face-to-face encounters with the
                  patient. 42 CFR § 424.22(a)(1)(v), as amended by final rule entitled Medicare Program;
                  Home Health Prospective Payment System Rate Update for Calendar Year 2012 (76 Fed.
                  Reg. 68526 (Nov. 4, 2011)), effective January 1, 2012.
                  10
                     CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 7, § 30.5.1.1. This
                  encounter must occur no more than 90 days before the start of home health care or within
                  30 days after the start of care.
                  11
                     CMS, Testimony of Ted Doolittle entitled Protecting Medicare and Medicaid: Efforts
                  to Prevent, Investigate and Prosecute Health Care Fraud, before Committee on the
                  Judiciary, Subcommittee on Crime and Terrorism, U.S. Senate, March 2012; 42 CFR
                  § 424.518(c)(i).

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                          2
                  and eight States had high percentages of HHAs with questionable
                  billing. 12
                  Federal investigators and analysts have focused their efforts to combat
                  Medicare fraud, waste, and abuse on certain geographic areas of Florida,
                  Texas, Louisiana, California, Illinois, New York, and Michigan that are at
                  a high-risk for fraud. 13 These efforts have included Medicare Strike Force
                  (Strike Force) investigations and cases. The Strike Force is an essential
                  component of the Health Care Fraud Prevention and Enforcement Action
                  Team, a joint effort of the Department of Health and Human Services
                  (HHS) and the Department of Justice (DOJ) to prevent, deter, and
                  aggressively prosecute health care fraud. Strike Forces are designed to
                  identify and investigate fraud and to prosecute perpetrators quickly. Strike
                  Force teams are composed of Federal prosecutors and law enforcement
                  personnel and, in some cases, State and local law enforcement personnel.
                  These teams are supported by data analysts and CMS program experts. 14
                  Strike Force investigations have led to charges against individuals for
                  billing Medicare for potentially fraudulent home health services in 2011.
                  For example, owners of an HHA in Miami were charged with conspiring
                  to commit health care fraud, money laundering, and payment of kickbacks
                  in July 2011. 15 These owners allegedly submitted fraudulent claims to
                  Medicare for home health services from August 2006 to March 2009
                  amounting to more than $11 million. Additionally, these owners allegedly
                  paid kickbacks to recruiters and instructed nurses to falsify patient medical
                  records to make it appear that Medicare beneficiaries qualified for and
                  received home health services that were not medically necessary or were
                  not provided.
                  States identified as having high percentages of questionable billing HHAs
                  in the prior OIG report also coincided with Strike Force cities where
                  individuals were charged for billing potentially fraudulent HHA services
                  in 2011. Using these three criteria, we identified certain areas prone to
                  HHA fraud (Figure 1). Specifically, OIG defined fraud-prone areas as
                  those that (1) are Strike Force cities, (2) are Strike Force cities where
                  individuals had been charged with billing potentially fraudulent home


                  12
                     OIG, Inappropriate and Questionable Billing by Medicare Home Health Agencies,
                  OEI-04-11-00240, August 2012.
                  13
                     OIG, Testimony of Daniel R. Levinson entitled Anatomy of a Fraud Bust: From
                  Investigation to Conviction before the U.S. Senate Committee on Finance, April 2012.
                  14
                     Ibid.
                  15
                     U.S. Attorney’s Office, Southern District of Florida, Miami Husband and Wife
                  Charged with Home Health Care Fraud, July 27, 2011. Accessed at
                  http://www.justice.gov/usao/fls/PressReleases/110727-03.html on February 16, 2012.

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                   3
                     health services in 2011, and (3) are located in a State that had a high
                     percentage of HHAs with questionable billing identified by OIG.
Figure 1: Fraud-Prone Areas




 Sources: OIG analysis of Health Care Fraud Prevention and Enforcement Action Team Strike Force cities, DOJ press
 releases, and HHAs with questionable billing.



                     Medicare Program Administration and Oversight Contractors
                     CMS uses contractors to assist in the administration and oversight of
                     Medicare. Administration activities include preventing improper
                     Medicare payments, and oversight activities include detecting and
                     deterring fraud. CMS provides direction and technical guidance to these
                     contractors by publishing program manuals and statements of work, which
                     govern contractor duties. In addition, contractor oversight is a current
                     HHS top management challenge, and OIG has identified issues with CMS
                     contractor oversight in previous reports. 16
                     Medicare Administrative Contractors
                     The Medicare Prescription Drug, Improvement, and Modernization Act of
                     2003 mandated that CMS replace claims processing contractors (fiscal
                     intermediaries and carriers) with Medicare Administrative Contractors

                     16
                       OIG, 2011 Top Management and Performance Challenges, Management Issue 7:
                     Oversight of CMS Program and Benefit Integrity Contractors; Zone Program Integrity
                     Contractors’ Data Issues Hinder Effective Oversight, OEI-03-09-00520, November
                     2011; and Medicare’s Program Safeguard Contractors: Performance Evaluation
                     Reports, OEI-03-04-00050, March 2006.

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                              4
                  (MAC). 17 As a part of this contracting reform, CMS established four
                  regions in which MACs process and pay Medicare Parts A and B home
                  health claims. 18 Each region covers multiple States. 19 As of December
                  2012, CMS had awarded contracts for all four regions, and three of the
                  four regions were operational. 20 Appendix A provides a map of the MAC
                  regions and lists the States in each region.
                  Claims Processing. MACs are responsible for making correct, reliable,
                  and timely payment of Medicare home health claims. 21 To accomplish
                  this, MACs are expected to use computerized edits, analyze and review
                  claims to prevent improper payments, and educate providers submitting
                  improper claims.
                  Claims Review To Prevent or Identify Improper Payments. To prevent or
                  identify improper payments, MACs conduct both complex and
                  noncomplex reviews of claims. 22 Complex reviews involve requesting,
                  receiving, and conducting medical record reviews of documentation
                  associated with claims. Noncomplex reviews occur when the MAC makes
                  a claim determination without conducting clinical review of medical
                  documentation submitted by the provider. Review of claims may occur
                  either before payment or after payment.
                  Additionally, MACs implement computerized edits to prevent improper
                  payments for claims submitted by providers that have been excluded, have
                  been suspended, or have had their Medicare billing privileges revoked.
                  For example, MACs collaborate with benefit integrity contractors, such as
                  Program Safeguard Contractors (PSC) and Zone Program Integrity
                  Contractors (ZPIC), to implement computerized edits to ensure that
                  suspended HHAs do not receive Medicare payments. 23 MACs also

                  17
                     Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                  P.L. 108-173, § 911; Social Security Act, § 1874A.
                  18
                     These four MAC regions also process and pay hospice claims. CMS, Medicare
                  Administrative Contractor Jurisdictions Fact Sheet. Accessed at
                  https://www.cms.gov/MedicareContractingReform/Downloads/MACJurisdictionFactshee
                  t.pdf on March 18, 2011.
                  19
                     MAC regions also cover territories, such as Puerto Rico.
                  20
                     The three MACs operational in June 2012 were Regions A (operational as of
                  December 2010), C (January 2011), and B (June 2011). CMS awarded the contract for
                  the Region D MAC in September 2012 but the contract is currently under protest.
                  21
                     CMS, Part A and Part B MAC Statement of Work, ch. 4, § 4.4b, September 2011.
                  22
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 3, § 3.3.1.
                  23
                     Contractors implement edits in their claims processing systems to verify and validate
                  claims data by detecting errors or potential errors. Edits also verify that certain data are
                  consistent and appropriate. CMS, Medicare Administrative Contractor Workload
                  Implementation Handbook (Legacy-to-MAC), ch. 4, § 4.10.3.2. Accessed at
                  http://www.cms.gov/MedicareContractingReform/Downloads/Legacy2MACImp.pdf on
                  February 3, 2012.

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                      5
                  approve or deny recommendations to revoke an HHA’s Medicare billing
                  privileges.24 Once a MAC approves a revocation recommendation, it
                  implements an edit to ensure that the HHA does not receive Medicare
                  payment during the revocation period.
                  Referrals To Investigate Potential Fraud. MACs must refer any instances
                  of suspected fraud they encounter during their claims reviews to benefit
                  integrity contractors.25 After investigating MAC referrals, benefit integrity
                  contractors determine the proper actions to take to address the potential
                  fraud. Actions may include referring the provider to law enforcement or
                  recommending administrative actions.
                  ZPICs
                  The Medicare Prescription Drug, Improvement and Modernization Act of
                  2003 required CMS to implement Medicare contracting reform. As part of
                  contracting reform, CMS is replacing the Medicare Parts A and B Program
                  PSCs with ZPICs. CMS established seven zones in which ZPICs will
                  operate, and each zone covers multiple States.26 As of June 2012, CMS
                  had awarded the contracts for all seven zones, and six were operational.27
                  Appendix B provides a map of the ZPIC zones and lists the States in each
                  zone.
                  ZPICs are responsible for preventing, detecting, and deterring fraud in
                  Medicare, including fraud among HHAs.28
                  Identifying Vulnerabilities To Prevent Fraud. One of the ways ZPICs help
                  prevent fraud, waste, and abuse is identifying program vulnerabilities
                  through the analysis and management of provider, supplier, and
                  beneficiary data.29, 30 Program vulnerabilities may also be identified
                  through other sources, such as audits, fraud alerts, and information from

                  24
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 15.27.2. CMS 

                  approves or denies revocation recommendations in which the providers or suppliers

                  submit claims for services or supplies that could not have been furnished to specific 

                  individuals on the dates of service. MACs approve or deny revocation recommendations 

                  for other reasons, such as HHAs’ not maintaining appropriate physical facilities (e.g., 

                  facilities are not located at the addresses on file with CMS or are not open during

                  business hours). Revocation recommendations may originate from contractors (e.g.,

                  ZPICs) or CMS. 

                  25
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 3, § 3.6.A.

                  26
                     ZPIC zones also cover territories, such as Puerto Rico. 

                  27
                     The six ZPICs operational in June 2012 were Zones 1 (operational as of December 

                  2010), 2 (February 2011), 3 (April 2012), 4 (February 2009), 5 (December 2009), and 7 

                  (February 2009). The Zone 6 ZPIC contract was awarded in September 2011, but was 

                  not operational as of September 2012. 

                  28
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 4, § 4.2.2.

                  29
                     Ibid. 

                  30
                     CMS, Medicare Benefit Vulnerability Reporting, Transmittal 211, Change Request

                  5581, June 2007.


CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                  6
                  OIG. Examples of vulnerabilities may include providers receiving
                  improper payments because of incorrect coding or billing for more than
                  the allowed number of services. ZPICs submit identified program
                  vulnerabilities to CMS in a report that includes information on how each
                  vulnerability was discovered, a summary of the vulnerability issues, a
                  description of the methodology, recommendations for resolving the
                  vulnerability, and any action taken to resolve it. 31 Some methods through
                  which program vulnerabilities may be resolved are claims processing
                  edits, provider education, or issuance of new regulations.
                  Analysis To Detect Fraud. ZPICs are expected to detect potential fraud by
                  analyzing information from internal or external sources. 32 Internal sources
                  may include proactive data analysis of claims, while external sources may
                  include beneficiary complaints or referrals from law enforcement and
                  MACs. 33
                  Once potential fraud has been identified, ZPICs open investigations. 34
                  Investigations may include interviews with beneficiaries to determine
                  whether they are homebound or medical reviews of potentially fraudulent
                  home health claims to determine whether services were medically
                  necessary. 35
                  Administrative Actions To Deter Fraud. ZPICs are expected to
                  recommend appropriate administrative actions to CMS or its contractors
                  when they identify reliable evidence of fraud. 36 Administrative actions
                  may include payment suspension or revocation of a provider’s billing
                  privileges, edits for prepayment review of claims, overpayment
                  recoupment, civil monetary penalties, and deactivation of a provider’s
                  billing privileges. 37 However, these recommendations are not always the
                  result of investigations. For instance, ZPICs may receive a request from
                  law enforcement to recommend a provider payment suspension. ZPICs
                  may also refer certain providers or beneficiaries to claims processing
                  contractors (e.g., MACs) for outreach and education.


                  31
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 4, § 4.31.
                  32
                     Ibid., § 4.2.2.
                  33
                     Ibid.
                  34
                     Ibid., § 4.7.
                  35
                     Ibid., § 4.7.1.
                  36
                     Ibid., § 4.2.2.
                  37
                     A provider’s billing privileges may be deactivated for many reasons, including not
                  submitting a Medicare claim for 12 consecutive months, failing to report a change to
                  information supplied on an enrollment application to CMS within 90 calendar days of
                  the change, or failing to report a change in ownership or control to CMS within 30
                  calendar days of the change. CMS, Medicare Program Integrity Manual, Pub. No. 100-
                  08, ch. 15, § 25.27.1.

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                7
                  CMS must approve certain administrative actions that ZPICs recommend
                  before they can be implemented. For instance, CMS must approve or
                  deny recommendations to suspend Medicare payments to providers. 38
                  While they are suspended, providers should not receive Medicare
                  payments. In some instances, CMS must also approve or deny
                  recommendations to revoke billing privileges of providers that do not
                  comply with Medicare requirements. 39 Provider billing privileges may be
                  revoked for 1 to 3 years, and providers are barred from reenrolling in
                  Medicare or receiving payment during that time. 40 Providers must apply
                  to reenroll in Medicare after the expiration of the reenrollment bar.
                  ZPICs may also deter fraud by referring cases to law enforcement for
                  further development. 41
                  Related OIG Work
                  Previous OIG reports have identified billing and coding as problems
                  among HHAs. For instance, in 2012, OIG found one out of four HHAs
                  had questionable billing and eight States had high percentages of HHAs
                  with questionable billing. 42
                  In 2012, OIG found that 98 percent of medical records for home health
                  claims documented that Medicare beneficiaries met coverage requirements
                  for home health services. 43 However, HHAs submitted 22 percent of
                  claims in error because services were unnecessary or claims were coded
                  inaccurately, resulting in $432 million in improper payments. That review
                  assessed HHAs’ medical records for beneficiaries but did not determine
                  whether those records accurately reflected beneficiaries’ medical

                  38
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 8, § 8.3.2.1. The
                  initial approval is for a payment suspension period of up to 180 days, with the option to
                  extend for an additional 180 days.
                  39
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 15.27.3.1.
                  CMS approves or denies revocation recommendations in which the providers or suppliers
                  submit claims for services or supplies that could not have been furnished to specific
                  individuals on the dates of service.
                  40
                     42 CFR § 424.535(a)(12)(ii)(c).
                  41
                     Law enforcement may include the OIG/Office of Investigations, Federal Bureau of
                  Investigation, Civilian Health and Medical Program of the Uniformed Services (now
                  TRICARE), Railroad Retirement Beneficiaries OIG, and/or the Medicaid Fraud Control
                  Units. CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 4, §§ 4.18.1 and
                  4.18.1.5.3. Certain allegations are referred directly to law enforcement without a ZPIC
                  investigation, such as specific allegations that indicate HHAs are involved with organized
                  crime. These referrals are known as immediate advisements. However, immediate
                  advisements are not considered case referrals to law enforcement. CMS, Medicare
                  Program Integrity Manual, Pub. No. 100-08, ch. 4, §§ 4.18.1.2, 4.8.
                  42
                     OIG, Inappropriate and Questionable Billing by Medicare Home Health Agencies,
                  OEI-04-11-00240, August 2012.
                  43
                     OIG, Coverage Requirements and Payment Accuracy for Medicare Home Health
                  Claims, OEI-01-08-00390, March 2012.

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                    8
                  conditions. It did not involve visiting beneficiaries to confirm their
                  homebound status, nor did it determine whether the care provided was
                  medically necessary.
                  In 2009, OIG found that Miami-Dade County, Florida, accounted for more
                  home health outlier payments in 2008 than the rest of the Nation combined
                  and that 67 percent of HHAs that received outlier payments greater than
                  $1 million were located in Miami-Dade County. 44
                  Previous OIG studies have also found vulnerabilities in Medicare
                  contractors’ efforts to identify and investigate potential fraud and abuse, as
                  well as limitations in CMS’s oversight of these contractors. For instance,
                  in 2007, OIG found that PSCs performed substantially different levels of
                  activities to detect and deter fraud across jurisdictions. 45 In 2010, OIG
                  found that only one of three Recovery Audit Contractors (RAC) referred a
                  total of two cases of potential fraud to CMS during a demonstration
                  project between 2005 and 2008. 46 However, CMS reported that it received
                  no specific provider referrals from Recovery Audit Contractors during this
                  time.

                  METHODOLOGY
                  We reviewed the home health administration and oversight activities that
                  MACs, ZPICs, and CMS performed from January to October 2011,
                  hereinafter referred to as 2011. 47 We included MACs from Regions A and
                  C and ZPICs from Zones 1, 4, 5, and 7. We did not include the remaining
                  MACs and ZPICs because they were not fully operational during our
                  evaluation timeframe.
                  We selected 2011 because it was the first period in which MACs and
                  ZPICs were operational in HHA fraud-prone areas. OIG defined fraud-
                  prone areas as those that (1) are Strike Force cities, (2) are Strike Force
                  cities where individuals had been charged with billing potentially
                  fraudulent home health services in 2011, and (3) are located in a State that



                  44
                     OIG, Aberrant Medicare Home Health Outlier Payment Patterns in Miami-Dade
                  County and Other Geographic Areas in 2008, OEI-04-08-00570, November 2009. CMS
                  makes additional payments, known as outlier payments, to HHAs that supply services to
                  beneficiaries who incur unusually large costs.
                  45
                     OIG, Medicare’s Program Safeguard Contractors: Activities To Detect and Deter
                  Fraud and Abuse, OEI-03-06-00010, July 2007.
                  46
                     OIG, Recovery Audit Contractors’ Fraud Referrals, OEI-03-09-00130, February 2010.
                  CMS contracts with RACs to identify improper payments from Medicare Parts A and B
                  claims that have been paid by claims processing contractors.
                  47
                     We did not include November and December 2011 in our review timeframe because
                  we collected data from CMS and its contractors in November 2011.

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                               9
                  had a high percentage of HHAs with questionable billing identified by
                  OIG.
                  Data Collection
                  We requested information from MACs, ZPICs, and CMS on activities
                  performed to prevent improper payments on home health claims and to
                  detect and deter potential fraud among HHAs in 2011. We requested that
                  respondents submit documentation to support their responses. If we did
                  not receive documentation supporting the reported activities, we did not
                  include them in our report.
                  Data Analysis
                  For each MAC region and ZPIC zone, we also analyzed 2011 home health
                  claims data to determine the total number of HHAs, the total number of
                  home health claims paid, and the total amount Medicare paid for these
                  claims. Finally, to determine the extent to which HHAs with suspended or
                  revoked billing privileges received improper payments, we analyzed home
                  health claims data from CMS’s Part A Standard Analytic File for 2011.
                  We reviewed responses and documentation to determine the number and
                  type of contractor activities to prevent improper payments and detect and
                  deter potential fraud in 2011.
                  MACs’ Activities To Prevent Improper Payments Among Home Health
                  Claims. We identified the methods (e.g., proactive data analysis or
                  medical review) each MAC used to prevent improper payments. We then
                  calculated the number and dollar amount of home health claims for which
                  each MAC prevented payment as a result of each method. However, we
                  did not determine whether HHAs appealed improper payments the MACs
                  prevented. We also asked MACs to specify the number of instances of
                  potential home health fraud they referred to benefit integrity contractors in
                  2011. We then determined whether activities and efforts varied across
                  MAC regions and fraud-prone areas.
                  ZPICs’ Activities To Prevent, Detect, and Deter Fraud Among HHAs. We
                  asked ZPICs to specify how many and what type of vulnerabilities they
                  reported to CMS in 2011. We also asked ZPICs to specify which methods
                  they used to identify potential fraud and initiate investigations on HHAs in
                  2011. We then determined how many HHA investigations were initiated




CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                        10
                  in 2011 in each ZPIC zone and whether the investigations resulted from
                  internal or external sources. 48
                  We asked ZPICs to specify which administrative actions they
                  recommended to CMS and/or MACs to address potential fraud.
                  Administrative actions included recoupment of overpayments, prepayment
                  edits, revocation of billing privileges, payment suspensions, unannounced
                  site visits, provider education referrals, and requests for anticipated
                  payment suppressions. 49 We also determined the number of case referrals
                  ZPICs made to law enforcement. Finally, we determined whether
                  activities and efforts varied across ZPIC zones and fraud-prone areas.
                  Improper Payments to HHAs With Suspended or Revoked Billing
                  Privileges. We determined the number of HHAs that ZPICs recommended
                  for payment suspension or revocation of billing privileges. We then
                  determined whether these recommendations had been approved or denied
                  by CMS or MACs. For approved recommendations, we determined the
                  dates on which HHAs were suspended or had billing privileges revoked
                  and the time it took for approval. 50 For recommendations not approved or
                  pending, we asked why these HHAs were not suspended or did not have
                  their billing privileges revoked. Additionally, we reviewed home health
                  claims data to determine whether Medicare paid HHAs that were
                  suspended, had billing privileges revoked, or were recommended for
                  revocation.
                  Limitations
                  While we substantiated responses from our information request using
                  documentation submitted by CMS and its contractors, these data were
                  self-reported. Our findings also cannot be projected to all MACs and
                  ZPICs because not all were operational at the time of our review.
                  Additionally, the fraud-prone areas identified in this report are not
                  intended to be a comprehensive list of areas in which HHA fraud, waste,
                  and abuse may be occurring.

                  48
                     We did not account for investigations initiated before or after our timeframe. In
                  addition, one ZPIC zone reported that it sometimes initiated multiple investigations on
                  the same HHA. Therefore, we determined the number of unique HHA investigations
                  initiated in this zone. Finally, we did not determine whether an investigation was closed
                  or open at the conclusion of our review timeframe.
                  49
                     Payment for home health episodes is typically made in two parts. The initial payment
                  is made at the start of the episode and the final payment is made at the end of the episode.
                  To receive initial payments, HHAs must submit a request for anticipated payment (RAP)
                  to claims processing contractors. One ZPIC in our evaluation recommended that CMS
                  suppress RAPs for multiple HHAs because of the potential for fraud, significant
                  overpayments, or inappropriate payments.
                  50
                     To determine the dates that HHA billing privileges were revoked, we used the
                  revocation dates that contractors reported. If multiple revocation dates were reported, we
                  used the latest.

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                      11
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                    12
                  FINDINGS
                  In 2011, the two MACs we reviewed collectively
                  prevented $275 million in improper payments and
                  referred 14 instances of potential fraud
                  MACs’ primary responsibility is to process and pay Medicare claims
                  submitted by a variety of providers, including HHAs. MACs are also
                  required to prevent payment for improper claims and refer instances of
                  potential fraud to benefit integrity contractors. Collectively, the two
                  MACs in our review prevented $275 million in improper payments, with
                  one MAC accounting for approximately 98 percent of these improper
                  payments. In addition, the MACs referred 14 instances of potential home
                  health fraud to benefit integrity contractors for further investigation.
                  The Region A MAC prevented approximately 98 percent of
                  improper payments
                  The two MACs in our review performed data analyses and prepayment
                  medical review of home health claims to prevent $275 million in improper
                  payments in 2011. 51 The Region A MAC accounted for approximately
                  98 percent ($268 million of $275 million) of improper payments prevented
                  by the two MACs in our review. This region included 5 percent (326 of
                  7,138) of HHAs in these two MAC regions.
                  In contrast, the Region C MAC, which included the HHA fraud-prone
                  areas of Miami, Baton Rouge, Dallas, and Houston, accounted for the
                  remaining 2 percent ($6 million of $275 million) of improper payments
                  prevented by these two MACs. This MAC region contained 95 percent
                  (6,812 of 7,138) of HHAs in our review. See Table 1 for improper
                  payments by MAC region.




                  51
                    MACs may also use other methods to prevent improper payments (e.g., postpayment
                  review of claims). However, the MACs in our review did not report using these methods.

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                13
    Table 1: Improper Payments by MAC Region, 2011*
                                       Total        Total Home
                                                                                             Percentage
                     Number           Home               Health        Total Improper
                                                                                             of Improper      Fraud-Prone
     Region              of           Health        Claims With             Payments
                                                                                               Payments             Areas
                     HHAs**          Claims            Improper            Prevented
                                                                                              Prevented
                                   Reviewed           Payments



     MAC A                 326         59,446             55,499         $268,424,685                98%                   --




                                                                                                              Miami, Baton
                                                                                                                   Rouge,
     MAC C***            6,812          6,525               2,718           $6,170,817                 2%
                                                                                                                   Dallas,
                                                                                                                  Houston


     Total               7,138         65,971             58,217         $274,595,502               100%
     *Our review timeframe was from January to October 2011. We did not include November and December 2011 in our review
     timeframe because we collected data from CMS and its contractors in November 2011.
     **This number includes HHAs with paid claims in 2011.
     ***The Region C MAC reported that it prevented 220 improper payments because of proactive data analysis; however, it was
     unable to provide us with documentation to substantiate this, and we did not include these improper payments in our
     analysis.
     Source: OIG analysis of MAC claims processing workload data and home health claims data, 2011.


                    MACs referred 14 instances of potential fraud to benefit
                    integrity contractors
                    The Region A MAC referred 11 of 14 HHAs and the Region C MAC
                    referred the remaining 3 HHAs to benefit integrity contractors. Seven of
                    the eleven HHAs that the Region A MAC referred to benefit integrity
                    contractors allegedly altered advance beneficiary notices (ABN). 52 The
                    MAC uncovered this potential fraud through medical review. The
                    Region A MAC referred the remaining 4 HHAs on the basis of complaints
                    from beneficiaries or other HHAs alleging that these HHAs billed for
                    services that were not provided. In 2011, Medicare paid these 11 HHAs
                    approximately $61 million.
                    The Region C MAC referred 3 HHAs to benefit integrity contractors for
                    various reasons, such as consistently billing high numbers of therapy
                    visits. In 2011, Medicare paid approximately $2.2 million to two of these
                    HHAs.




                    52
                       An ABN must be issued when a provider believes that Medicare may not pay for an
                    item or service that it usually covers because the item or service is not considered
                    medically reasonable and necessary. In these cases, the beneficiary must pay the
                    provider directly for any noncovered services. CMS, Advance Beneficiary Notice of
                    Noncoverage, Part A and Part B.

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                                          14
                    In 2011, the four ZPICs we reviewed did not identify
                    any HHA vulnerabilities and varied substantially in
                    their efforts to detect and deter fraud
                    ZPICs are responsible for preventing fraud by identifying program
                    vulnerabilities. 53 They are also responsible for detecting and investigating
                    potential fraud identified through external and internal sources, as well as
                    deterring Medicare fraud by recommending appropriate administrative
                    actions to CMS or MACs or referring cases of potential fraud to law
                    enforcement.
                    In 2011, ZPICs did not identify any HHA-specific vulnerabilities. 54
                    Additionally, ZPICs in different geographic zones and fraud-prone areas
                    did not perform similar levels of activities to detect and deter fraud among
                    HHAs in 2011.
                    The Zone 7 ZPIC initiated over half of investigations on HHAs
                    in 2011
                    In 2011, the four ZPICs in our review initiated investigations on 255 of
                    6,796 (4 percent) HHAs located in these zones. Table 2 shows the number
                    and percentage of HHAs for which investigations were initiated by ZPIC
                    zone.
  Table 2: Number and Percentage of HHAs for Which ZPICs Initiated Investigations, 2011

                                                Number of          Percentage of         Percentage of
                                                  HHAs for              HHAs for            Total HHAs
                           Number of                                                                             Fraud-Prone
   Zone                                              Which                 Which                    With
                              HHAs*                                                                                    Areas
                                             Investigations        Investigations        Investigations
                                              Were Initiated        Were Initiated             Initiated

   ZPIC 1                        1,115                     44                   4%                   17%          Los Angeles

   ZPIC 4                        2,886                     31                   1%                   12%      Dallas, Houston

   ZPIC 5                        1,351                     33                   2%                   13%         Baton Rouge

   ZPIC 7**                      1,444                    147                  10%                   58%                 Miami

      Total                      6,796                    255                   4%                 100%
   *This number includes HHAs with paid claims in 2011. However, some HHAs on which ZPICs initiated investigations in 2011
   may have submitted claims that were not paid during this timeframe and are therefore not included in this number.
   **The Zone 7 ZPIC reported that it initiated multiple investigations of the same HHAs. We determined the number of unique
   HHAs for which investigations were initiated in this zone.
   Source: OIG analysis of ZPIC benefit integrity workload data and home health claims data, 2011.




                    53
                       Vulnerabilities may include issues such as providers receiving increased Medicare
                    payments because of incorrect coding.
                    54
                       ZPIC Zone 5 reported that it identified and submitted two vulnerabilities to CMS in
                    May 2011 that were not specific to home health but had the potential to affect home
                    health. As of June 2012, this ZPIC reported that CMS had not responded to these
                    vulnerabilities.

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                                           15
                  The Zone 7 ZPIC, which includes the HHA fraud-prone area of Miami,
                  initiated investigations on 147 HHAs in 2011. These investigations
                  accounted for over half (58 percent) of all investigations initiated. This
                  ZPIC used investigative methods including site visits to determine
                  whether HHAs were operational at their business addresses and
                  beneficiary interviews to determine whether beneficiaries receiving home
                  health services were homebound. The other three ZPICs, which included
                  the fraud-prone areas of Dallas, Houston, Los Angeles, and Baton Rouge,
                  initiated investigations on the remaining 108 HHAs; each initiated 17
                  percent or less of total investigations.
                  All ZPICs used external or internal sources to initiate investigations on
                  HHAs. Overall, ZPICs initiated more investigations on HHAs from
                  external than internal sources in 2011. Specifically, the investigations of
                  192 of 255 (75 percent) HHAs were initiated from external sources.
                  Examples of external sources included beneficiary complaints of
                  kickbacks or billing for services that were not provided. Internal sources
                  included proactive data analysis of HHA claims and research that
                  uncovered potential beneficiary sharing between HHAs and other
                  providers. 55 Appendix C provides the number and percentage of HHAs for
                  which investigations were initiated from external and internal sources by
                  ZPIC zone in 2011.
                  The Zones 4 and 7 ZPICs recommended administrative actions
                  and referred law enforcement cases for the majority of HHAs
                  in 2011
                  ZPICs recommended administrative actions to CMS or MACs to address
                  potential fraud or to prevent and recover inappropriate payments. 56
                  Recommended administrative actions included recoupment of
                  overpayments, prepayment edits, revocation of billing privileges, payment
                  suspensions, unannounced site visits, provider education referrals, and
                  requests for anticipated payment suppressions. In addition, ZPICs referred
                  cases to law enforcement agencies that could pursue civil, criminal, and
                  administrative remedies for fraud.
                  The Zones 4 and 7 ZPICs, which include the fraud-prone areas of Dallas,
                  Houston, and Miami, recommended administrative actions and referred
                  law enforcement cases for the majority of HHAs (219 of 248) in 2011.


                  55
                     Beneficiary sharing occurs when multiple providers fraudulently bill Medicare for the
                  same beneficiary.
                  56
                     We determined the number of administrative actions recommended and law
                  enforcement cases referred for unique HHAs within each zone. ZPICs may have
                  recommended multiple administrative actions and/or referred law enforcement cases for
                  the same HHA.

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                   16
                     Together, these two ZPICs recommended administrative actions and
                     referred law enforcement cases for approximately eight times the number
                     of HHAs of the two other ZPIC zones in our review, which also included
                     fraud-prone areas.
                     Table 3 shows the number and percentage of HHAs for which
                     administrative actions were recommended and law enforcement cases
                     were referred by ZPIC zone. Appendix D provides the number and
                     percentage of HHAs for which ZPICs recommended specific
                     administrative actions and referred law enforcement cases in 2011.
  Table 3: Number and Percentage of HHAs for Which ZPICs Recommended
  Administrative Actions and Referred Law Enforcement Cases, 2011

                                               Number of HHAs for          Percentage of HHAs
                                                      Which ZPICs             for Which ZPICs
                                                    Recommended                Recommended
                            Number of
   Zone                                             Administrative              Administrative         Fraud-Prone Areas
                               HHAs*
                                              Actions and Referred                Actions and
                                                  Law Enforcement                Referred Law
                                                           Cases**         Enforcement Cases

   ZPIC 1                          1,115                            19                          8%              Los Angeles

   ZPIC 4                          2,886                            72                        29%           Dallas, Houston

   ZPIC 5                          1,351                            10                          4%             Baton Rouge

   ZPIC 7                          1,444                           147                        59%                      Miami

      Total                        6,796                           248                       100%
   *This number includes HHAs with paid claims in 2011. However, some HHAs on which ZPICs initiated investigations in 2011
   may have submitted claims that were not paid during this timeframe and are therefore not included in this number.
   **We counted the unique HHAs that had administrative actions and/or law enforcement case referrals in 2011 because certain
   ZPICs recommended multiple administrative actions and/or referred multiple law enforcement cases for the same HHA.
   Source: OIG analysis of ZPIC benefit integrity workload data and home health claims data, 2011.



                     In 2011, Medicare inappropriately paid five HHAs with
                     suspended or revoked billing privileges; additionally,
                     CMS did not act on all revocation recommendations
                     Medicare inappropriately paid four HHAs after they had been suspended
                     and one HHA after its billing privileges had been revoked in 2011. In
                     addition, revocation review delays resulted in CMS’ not acting on
                     5 revocation recommendations in 2011. As a result, Medicare paid
                     $651,777 in 2011 to two HHAs whose billing privileges had been
                     recommended for revocation.




CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                                          17
                  Medicare inappropriately paid approximately $137,000 to four
                  suspended HHAs and one HHA that had its billing privileges
                  revoked
                  CMS approved ZPIC recommendations to suspend payments to 15 of
                  16 HHAs in 2011. 57 The HHAs were suspended for a variety of reasons,
                  including misrepresentation of services billed to Medicare, improper
                  certification of beneficiaries, or involvement in a conspiracy to commit
                  fraud. Medicare inappropriately paid $79,933 to 4 of these 15 HHAs in
                  2011 after the suspensions were effective.
                  The Region C MAC also revoked the billing privileges of 16 of 17 HHAs
                  in 2011. 58 Fourteen were revoked for not maintaining appropriate physical
                  facilities (e.g., facilities were not located at the addresses on file with
                  CMS or were not open during business hours). The remaining HHAs’
                  billing privileges were revoked because they did not maintain appropriate
                  physical facilities and the owners were alleged or convicted felons. 59
                  Medicare inappropriately paid $57,349 to one of the 16 HHAs in 2011
                  after its billing privileges were revoked.
                  CMS did not act on five revocation recommendations
                  In 2011, the Zone 7 ZPIC recommended the revocation of 17 HHAs’
                  billing privileges in Florida. These recommendations were sent directly to
                  the Region C MAC, which took action on all of them. Specifically, the
                  Region C MAC approved 16 of these 17 revocation recommendations in
                  an average of 12 days.
                  In contrast, the Zone 4 ZPIC sent five revocation recommendations to
                  CMS from May to September 2011 for HHAs in Texas. However, CMS
                  did not take action on these recommendations and, in October 2011,
                  instructed the Zone 4 ZPIC to submit them to the Region C MAC. As a
                  result, Medicare paid two HHAs a total of $651,777 after receiving the
                  recommendations that their billing privileges be revoked.
                  As of May 2012, the Zone 4 ZPIC reported that it had submitted two
                  revocation recommendations to the Region C MAC. It also reported that
                  the remaining revocation recommendations had not been submitted
                  because of time and resource constraints.

                  57
                     CMS approved the remaining payment suspension outside our review timeframe.
                  58
                     The MAC did not revoke the billing privileges of one HHA because it voluntarily
                  terminated its participation in Medicare before the recommended revocation date.
                  59
                     If the owner of a provider or supplier has been convicted of a Federal or State felony
                  offense that CMS has determined to be detrimental to the best interests of the program
                  and its beneficiaries 10 years before enrollment or revalidation of enrollment, the billing
                  privileges of the provider or supplier may be revoked. CMS, Medicare Program
                  Integrity Manual, Pub. No. 100-08, ch. 15, § 15.27.2.

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                      18
                  CONCLUSION AND RECOMMENDATIONS
                  HHAs are considered to be particularly vulnerable to fraud, waste, and
                  abuse. CMS designated newly enrolling HHAs as high-risk providers in
                  March 2011, citing their record of fraud, waste, and abuse. Additionally,
                  previous OIG work has identified questionable billing patterns among
                  HHAs, particularly in specific fraud-prone areas. Despite these risks, our
                  evaluation found potential issues with CMS’s and its contractors’ ability to
                  identify and respond to potential fraud.
                  In 2011, the two MACs we reviewed collectively prevented $275 million
                  in improper payments and referred 14 instances of potential fraud.
                  Further, the four ZPICs we reviewed did not identify any HHA
                  vulnerabilities and varied substantially in their efforts to detect and deter
                  fraud. In 2011, Medicare inappropriately paid five HHAs with suspended
                  or revoked billing privileges; additionally, CMS did not act on all
                  revocation recommendations.
                  We therefore recommend that CMS:
                  Establish Additional Contractor Performance Standards for
                  High-Risk Providers in Fraud-Prone Areas
                  CMS should establish additional performance standards for contractor
                  activities to ensure that they are providing oversight commensurate with
                  risks posed by high-risk providers, including newly enrolled HHAs, in
                  fraud-prone areas. To do this, CMS could work with contractors to
                  identify current fraud schemes in each jurisdiction and annually develop
                  contractor performance standards specific to those fraud schemes.
                  However, contractors would need to maintain flexibility to oversee all
                  types of providers in their jurisdictions. Therefore, these performance
                  standards could guide contractors in focusing their activities on specific
                  types of providers that are exhibiting high levels of potential fraud and that
                  need particular oversight emphasis, such as HHAs as identified in this and
                  previous OIG work. While these standards should not be the only
                  measure of contractor performance, they could provide important
                  information on contractor performance and ensure contractors are
                  factoring current fraud schemes into their oversight activities.
                  Develop a System To Track Revocation Recommendations and
                  Respond to Them in a Timely Manner
                  CMS should develop a system to track revocation recommendations. This
                  system should flag recommendations to which CMS or its contractors
                  have not responded within a specified timeframe (e.g., within 30 days of
                  receipt) and require documentation to justify why any cases exceed this
                  timeframe. For revocation recommendations that exceed this timeframe,
                  CMS should consider implementing safeguards (e.g., prepayment reviews,

CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                        19
                  payment suspensions) to prevent payments to providers recommended for
                  revocation while it determines whether to revoke their billing privileges.
                  Finally, CMS should educate contractors on how to properly submit
                  revocation recommendations to CMS or its contractors to ensure they are
                  submitted and processed in a consistent and timely manner.
                  Follow Up on and Prevent Future Inappropriate Payments
                  Made to HHAs With Suspended or Revoked Billing Privileges
                  CMS should follow up on these inappropriate payments made to HHAs to
                  determine the reasons for them. CMS should also ensure that edits are in
                  place or are functioning properly to prevent inappropriate Medicare
                  payments to HHAs with suspended or revoked billing privileges. We have
                  provided CMS separately with additional information on the HHAs with
                  inappropriate payments identified in our report.




CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                     20
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  In its comments on the draft report, CMS concurred with all three
                  recommendations. CMS acknowledged that home health services have
                  historically been vulnerable to fraud, waste, and abuse. For this reason,
                  CMS indicated that it is taking additional steps to address vulnerabilities
                  in the HHA enrollment and claims payment process using authorities
                  granted under the Affordable Care Act. CMS stated that it is building
                  models in its Fraud Prevention System (FPS) that can detect and generate
                  alerts for suspicious billing by all major provider types, including HHAs.
                  With regard to our first recommendation, CMS stated that it has
                  established categories for enrollment screening on the basis of risk of
                  fraud. In addition, CMS stated that it uses the FPS to identify high risk
                  providers, and provides alerts on these providers identified as potentially
                  fraudulent. Program integrity contractors are required to review and
                  investigate all FPS alerts, and CMS is modifying the statement of work for
                  all ZPICs to clarify processes to be used in this work.
                  With regard to our second recommendation, CMS stated that it has
                  established guidelines to ensure that revocation recommendations are
                  addressed in a timely manner. Additionally, CMS stated that it has
                  implemented a tracking system that includes revocation-specific tasks,
                  status, request dates, contact dates, and other applicable information.
                  With regard to our final recommendation, CMS stated that it will follow
                  up and forward additional information on the HHAs with improper
                  payments to the appropriate contractors. CMS also stated that it has
                  ensured that edits are in place and are functioning properly to prevent
                  inappropriate payments to HHAs identified in our report. According to
                  CMS, when a revocation is entered into the Provider Enrollment, Chain,
                  and Ownership System (PECOS), edits are triggered in the appropriate
                  claims systems to prevent claims from being paid with dates of service on
                  or after the date of revocation.
                  We support CMS’s efforts to address these issues and encourage continued
                  progress. For the full text of CMS’s comments, see Appendix E.




CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                      21
                  APPENDIX A

                  Map of Medicare Administrative Contractors




                                                                                       A
                                                      B

                              D



                                                                         C




                  Medicare Administrative Contactors, Regions, and Operational Dates:

                  Region A, National Heritage Insurance Corporation, December 2010:
                  Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island, and
                  Vermont.
                  Region B,* CIGNA Government Services, June 2011: Colorado, Delaware,
                  District of Columbia, Iowa, Kansas, Maryland, Missouri, Montana, Nebraska,
                  North Dakota, Pennsylvania, South Dakota, Utah, Virginia, West Virginia, and
                  Wyoming.
                  Region C, Palmetto Government Benefits Administrator, January 2011:
                  Alabama, Arkansas, Florida, Georgia, Illinois, Indiana, Kentucky, Louisiana,
                  Mississippi, New Mexico, North Carolina, Ohio, Oklahoma, South Carolina,
                  Tennessee, and Texas.
                  Region D,* Noridian Administrative Services, Not Yet Operational: Alaska,
                  American Samoa, Arizona, California, Guam, Hawaii, Idaho, Michigan,
                  Minnesota, Nevada, New Jersey, New York, Northern Mariana Islands, Oregon,
                  Puerto Rico, U.S. Virgin Islands, Washington, and Wisconsin.


                  *This region was not included in our review because it was not fully operational
                  during our study timeframe, which extended from January to October 2011.




CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                               22
                  APPENDIX B
                  Map of Zone Program Integrity Contractors




                                            2
                                                                                     6

                                                                         3
                          1

                                                                             5
                                                      4

                                                                                 7




                  Zone Program Integrity Contractors, Zones, and Operational Dates:
                  Zone 1, Safeguard Services, LLC, December 2010: American Samoa,
                  California, Guam, Hawaii, Nevada, and the Northern Mariana Islands.
                  Zone 2,* AdvanceMed Corporation, February 2011: Alaska, Arizona, Idaho,
                  Iowa, Kansas, Missouri, Montana, Nebraska, North Dakota, Oregon, South
                  Dakota, Utah, Washington, and Wyoming.
                  Zone 3,* Cahaba Safeguard Administrators, April 2012: Illinois, Indiana
                  Kentucky, Michigan, Minnesota, Ohio, and Wisconsin.
                  Zone 4, Health Integrity, LLC, February 2009: Colorado, New Mexico,
                  Oklahoma, and Texas.
                  Zone 5, AdvanceMed Corporation, December 2009: Alabama, Arkansas,
                  Georgia, Louisiana, Mississippi, North Carolina, South Carolina, Tennessee,
                  Virginia, and West Virginia.
                  Zone 6,* Cahaba Safeguard Administrators, Not Yet Operational:
                  Connecticut, Delaware, District of Columbia, Maine, Maryland, Massachusetts,
                  New Hampshire, New Jersey, New York, Pennsylvania, Rhode Island, and
                  Vermont.
                  Zone 7, Safeguard Services, LLC, February 2009: Florida, Puerto Rico, and
                  U.S. Virgin Islands.


                  *This zone was not included in our review because it was not operational during
                  our study timeframe, which extended from January to October 2011.




CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                              23
                               APPENDIX C
Number and Percentage of Home Health Agencies for Which Zone Program Integrity
Contractors Initiated Investigations From External and Internal Sources in 2011*

                                                Number of           Percentage of              Number of          Percentage of
 Zone                                            HHAs for          Total HHAs for               HHAs for         Total HHAs for
                        Number of
 Program                                            Which                  Which                   Which                 Which
                      Home Health                                                                                                          Fraud-Prone
 Integrity                                  Investigations         Investigations          Investigations        Investigations
                         Agencies                                                                                                                Areas
 Contractor                                  Were Initiated         Were Initiated          Were Initiated        Were Initiated
                          (HHA)**
 (ZPIC) Zone                                From External          From External            From Internal         From Internal
                                                  Sources                 Sources                Sources             Sources***

 ZPIC 1                         1,115                      28                    11%                      16                    6%          Los Angeles

 ZPIC 4                         2,886                      26                    10%                        5                   2%      Dallas, Houston

 ZPIC 5                         1,351                      30                    12%                        3                   1%          Baton Rouge

 ZPIC 7†                        1,444                    108                     42%                      39                   15%                  Miami

    Total                       6,796                    192                     75%                      63                   25%
 *Internal sources may include proactive data analysis of claims, while external sources may include beneficiary complaints or referrals from law

 enforcement and MACs. 

 **This number includes HHAs with paid claims in 2011. However, some HHAs on which ZPICs initiated investigations in 2011 may have 

 submitted claims that were not paid during this timeframe and are therefore not included in this number. 

 ***Column does not sum to total because of rounding. 

 †The Zone 7 ZPIC reported that it initiated multiple investigations of the same HHAs. We determined the number of unique HHAs for which 

 investigations were initiated in this zone. We used the source of the first investigation initiated as the source (i.e., external, internal) for any HHAs 

 on which this ZPIC initiated multiple investigations. 

 Source: Office of Inspector General analysis of ZPIC benefit integrity workload data and home health claims data, 2011. 





      CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                                                           24
                                 APPENDIX D
           Number and Percentage of Home Health Agencies for Which Zone Program Integrity Contractors Recommended Specific Administrative
           Actions and Referred Law Enforcement Cases in 2011

                                                                                                                                                                                               Percentage of
                                                                                                                                                                    Number of HHAs
                                                                                                                                                                                              Total HHAs for
                       Number of Home                                        Number of                                                        Number of             for Which ZPICs
                                                     Number of                                     Number of            Number of                                                               Which ZPICs
Zone Program            Health Agencies                                           HHAs                                                             HHAs              Recommended
                                                         HHAs                                          HHAs                 HHAs                                                              Recommended
Integrity                         (HHA)                                 Recommended                                                       Recommended                 Administrative                                Fraud-Prone
                                                 Recommended                                   Recommended             Referred to                                                            Administrative
Contractor               Recommended                                    for Revocation                                                         for Other                 Actions and                                      Areas
                                                for Prepayment                                   for Payment                  Law                                                                Actions and
(ZPIC) Zone            for Overpayment                                        of Billing                                                  Administrative               Referred Law
                                                          Edits                                  Suspension           Enforcement                                                              Referred Law
                           Recoupment                                        Privileges                                                         Actions*                Enforcement
                                                                                                                                                                                                Enforcement
                                                                                                                                                                             Cases**
                                                                                                                                                                                                      Cases


ZPIC 1                                   11                       7                      0                      2                   0                      2                         19                      8%      Los Angeles


                                                                                                                                                                                                                           Dallas,
ZPIC 4                                   58                       0                      5                      8                   8                      2                         72                     29%
                                                                                                                                                                                                                          Houston


ZPIC 5                                     5                      1                      0                      3                   1                      1                         10                      4%      Baton Rouge



ZPIC 7                                   72                     71                     17                       3                  10                      9                        147                     59%              Miami



   Total                                146                     79                     22                      16                  19                     14                        248                   100%

*ZPICs reported that other administrative actions included requests for unannounced site visits, referrals for provider education, and requests for anticipated payment suppressions. In addition, while we did not include these
administrative actions, ZPIC Zones 1, 4, and 7 added beneficiaries to existing autodeny edits. ZPIC Zone 4 also added one provider to a new autodeny edit.
**Rows do not sum to totals because we counted the unique HHAs that had administrative actions and/or law enforcement case referrals in 2011. Certain ZPICs recommended multiple administrative actions and/or referred law
enforcement cases for the same HHA.
Source: Office of Inspector General analysis of ZPIC benefit integrity workload data and home health claims data, 2011.




           CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                                                                                                                          25
                    APPENDIXE
                    Agency Comments



   c.~·!#_ ~'
      "'~ 	
                  DEPARTMENT OF HEALlli & HUMAN s_E_R_v_ICES
                                                        ___ ___ __c_e_nrors_
                                                                       _ _ ro_r_Me
                                                                                 _d_lca_·_re_&_Mod
                                                                                               ___

                                                                                                      Administrator
                                                                                                      Washington. DC 20201
                                                                                                                              ~c_._"'_s_e_rvi_c•_•


               DATE:              NOV 0 5 2012
              TO: 	             Daniel R. Levinson 

                                Inspcc_tor Oeneral 

                                                       /S/
                FROM: 	         Ma~1    Tawooncr 

                                Acting Adm iriistrator 


                SUB.JECT: 	 Office of Inspector -General (010) Draft Report: "CMS and Co ntractor Oversight
                            ofl-lome Health Agencies" (OEI-04-11-00220)


                The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                comment on the OIG draft report entitled, •·eMS and Contractor Oversight of Home Health
                Agencies." The objectives of the draft report were to determine the extent to which: I) CMS and
                its contractors performed activities to prevent impn,per payments and to detect and deter
                potential fraud among home health agencies (HHA) in 2011, and 2) Hl!As with suspended or
                revoked billing privileges received inappropriate Medicare payments in 20 ll.

                As stated in the 010 report. Medicare paid $19.5 billion to 11,203 HHAs in 2010. HHA services
                have historically been vulnerable to fraud, wasie, and abuse. As such, CMS is taking additional
                steps to address potential vulnerabilities in ihe enrollment and claims payment process [;)r this
                supplier group using the authorities granted under the Affordable Care Act 1• Under the new
                screening regulations2, all newly enrolling HHAs are considered a high risk provider/supplier
                and are therefore subject to the highest level of screening, including unannounced silt! visits. As
                part ofCMS's revalidation efforts, all currently enrolled HHAs were sent revalidation notices
                prior to December 31, 2011, and are currently in process. In addition. all HHAs are subject to an
                unannounced physical site visit as part of the revalidation process.

                The Affordable Care Act also enhanced CMS's authority to suspend payments for credible
                allegations of fraud. CMS is using this new authority to coordinate administrative actions with
                law enforcement activities. For example, in February 2012, CMS announced the suspension of
                payments to 78 HHAs involved in an alleged fraud scheme .in Dallas that was part of the
                February 28,2012, Health Care Fraud Prevention and Enforcement Action Team (HEAT) Strike
                Force takcdown. ln October 2012, CMS suspended or took other administrative action against 30

                1
                  Section 6401 of the Affordable Care Act provided the Secretary with authority to perform catPgorical risk·based
                screening on providers and suppliers at enrollment and upon revalidation.
                'CMS 6028-FC entitled, "Medicare, Medicaid and Children's Health Insurance Programs; Additional Screening
                Requirements, Application Fees, Te.mporary Enrollment Moratoria, PaymPnt Suspensions and Compliance Plans for
                Providers and Suppliers" was published in the Federal Register on February 2, 2011.




CMS and Contractor Oversight of Home Health Agencies (OEl-04-11 -00220)                                                                              26
CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)   27
CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)   28
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Dwayne Grant, Regional
                  Inspector General for Evaluation and Inspections in the Atlanta regional
                  office, and Jaime Durley, Deputy Regional Inspector General.
                  David Samchok served as the lead analyst for this study. Other Office of
                  Evaluation and Inspections staff from the Atlanta regional office who
                  conducted this study include Rachel Daiber. Central office staff who
                  provided support include Kevin Farber, Scott Manley, and Debra Roush.




CMS and Contractor Oversight of Home Health Agencies (OEI-04-11-00220)                       29
                Office of Inspector General
                                  http://oig.hhs.gov
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
